("'~
,~f-
       DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                                     Region IX
                                                                                     Office of Audit Services
                                                                                     90 - yth Street, Suite 3-650
       J L 01 2009                                                                   San Francisco, CA 94103




   Report Number: A-09-09-00057

   Leland Giddings, M.D.
   Chief Compliance Officer
   University of California San Diego Medical Center
   402 Dickinson Street, Suite 4-480
   San Diego, California 92103-8986

   Dear Dr. Giddings:

   Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
   General (OIG), final report entitled "Review of Oxaliplatin Billing at University of California
   San Diego Medical Center for Calendar Years 2004 and 2005." We will forward a copy of this
   report to the HHS action official noted on the following page for review and any action deemed
   necessary.

   The HHS action official will make final determination as to actions taken on all matters reported.
   We request that you respond to this official within 30 days from the date of this letter. Your
   response should present any comments or additional information that you believe may have a
   bearing on the final determination.

   Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are made
   available to the public to the extent that information in the report is not subject to exemptions in
   the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

   If you have any questions or comments about this report, please call Tom Lin, Senior Auditor, at
   (415) 437-8374 or Alice Norwood, Audit Manager, at (415) 437-8360. Please refer to
   report number A-09-09-00057 in all correspondence.

                                                  Sincerely,


                                          ~~.
                                                 Lori A. Ahlstrand
                                                 Regional Inspector General
                                                  for Audit Services


   Enclosure
Page 2 - Leland Giddings, M.D.


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East l ih Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





          REVIEW OF

    OXALIPLATIN BILLING AT

   UNIVERSITY OF CALIFORNIA

  SAN DIEGO MEDICAL CENTER

     FOR CALENDAR YEARS

        2004 AND 2005





                    Daniel R. Levinson

                     Inspector General


                        July 2009

                      A-09-09-00057

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission ofthe Office oflnspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office oflnvestigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND


Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. Medicare uses an outpatient prospective payment system to pay for hospital outpatient
serVIces.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1,2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

University of California San Diego Medical Center (UCSD Medical Center) is a hospital located
in San Diego, California. We reviewed payments to UCSD Medical Center for oxaliplatin
provided to Medicare beneficiaries during calendar years (CY) 2004 and 2005.

OBJECTIVE

Our objective was to determine whether UCSD Medical Center billed Medicare for oxaliplatin in
accordance with Medicare requirements.

SUMMARY OF FINDING

During CYs 2004 and 2005, UCSD Medical Center did not bill Medicare in accordance with
Medicare requirements for the five oxaliplatin outpatient claims that we reviewed. Specifically,
the hospital billed Medicare for (1) an incorrect number of service units for three claims,
(2) services not provided for one claim, and (3) an incorrect Healthcare Common Procedure
Coding System code for one claim. As a result, UCSD Medical Center received overpayments
totaling $149,808. The overpayments occurred because the hospital did not have controls in
place to ensure the proper billing of oxaliplatin.

RECOMMENDATIONS

We recommend that UCSD Medical Center:

   "	 refund to the Medicare administrative contractor $149,808 in identified overpayments
      and

   "	 ensure that the drugs billed correspond to the drugs administered.

UNIVERSITY OF CALIFORNIA SAN DIEGO MEDICAL CENTER COMMENTS

In its comments on our draft report, UCSD Medical Center accepted our recommendations and
described actions it had taken to implement them. UCSD Medical Center's comments are
included in their entirety as the Appendix.
                              TABLE OF CONTENTS




INTRODUCTION                                                  1


     BACKGROUND                                                1

         Outpatient Prospective Payment System                 1

         Oxaliplatin                                           1

         University of California San Diego Medical Center.   .1


     OBJECTIVE, SCOPE, AND METHODOLOGY                        1

          Objective                                           1

          Scope                                               1

          Methodology                                         2


FINDING AND RECOMMENDATIONS                                   2


     MEDICARE REQUIREMENTS                                    2


     INCORRECT BILLING                                        3


     RECOMMENDATIONS                                          4


     UNIVERSITY OF CALIFORNIA SAN DIEGO

      MEDICAL CENTER COMMENTS                                 .4


APPENDIX


    UNIVERSITY OF CALIFORNIA SAN DIEGO MEDICAL CENTER COMMENTS





                                         11
                                      INTRODUCTION


BACKGROUND


Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS applies to
services furnished on or after August 1, 2000.

Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory
payment classification group to which each service is assigned. The OPPS uses the Healthcare
Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory
payment classification group.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1, 2003, through
December 31,2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

University of California San Diego Medical Center

University of California San Diego Medical Center (UCSD Medical Center) is a hospital located
in San Diego, California. UCSD Medical Center's Medicare claims are processed and paid by
Palmetto GBA, the Medicare administrative contractor for California.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether UCSD Medical Center billed Medicare for oxaliplatin in
accordance with Medicare requirements.

Scope

We identified and reviewed five claims for which UCSD Medical Center billed HCPCS code
C9205 for more than 100 service units of oxaliplatin and received Medicare payments of
$155,658 for oxaliplatin furnished to hospital outpatients during calendar years (CY) 2004 and
2005.




                                                1

We limited our review of UCSD Medical Center's internal controls to those applicable to billing
for oxaliplatin services because our objective did not require an understanding of all internal
controls over the submission of claims. Our review allowed us to establish reasonable assurance
of the authenticity and accuracy of the data obtained from CMS's National Claims History file
for CYs 2004 and 2005, but we did not assess the completeness of the file.

We performed our audit from December 2008 through May 2009.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws, regulations, and guidance;

   •	 used CMS's National Claims History file for CYs 2004 and 2005 to identify Medicare
      claims for which UCSD Medical Center billed at least 100 service units of oxaliplatin
      under HCPCS code C9205 and received Medicare payments for those units;

   •	 contacted UCSD Medical Center to determine whether the identified oxaliplatin services
      were billed correctly and, if not, why the services were billed incorrectly;

   •	 obtained and reviewed records from UCSD Medical Center that supported the identified
      claims; and

   •	 calculated overpayments using corrected payment information from Palmetto GBA.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

During CYs 2004 and 2005, UCSD Medical Center did not bill Medicare in accordance with
Medicare requirements for the five oxaliplatin outpatient claims that we reviewed. Specifically,
the hospital billed Medicare for (l) an incorrect number of service units for three claims,
(2) services not provided for one claim, and (3) an incorrect HCPCS code for one claim. As a
result, UCSD Medical Center received overpayments totaling $149,808. The overpayments
occurred because the hospital did not have controls in place to ensure the proper billing of
oxaliplatin.

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS's "Medicare Claims


                                                2

Processing Manual," Pub. No.1 00-04, chapter 4, section 2004, states: "The definition of service
units ... is the number of times the service or procedure being reported was performed." In
addition, chapter 1, section 80.3.2.2, of this manual states: "In order to be processed correctly
and promptly, a bill must be completed accurately."

Through CMS Transmittal A-03-051, Change Request 2771, dated June 13,2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code cn05
effective July 1, 2003. The description for HCPCS code C9205 is "injection, oxaliplatin, per
5 [milligrams]." Therefore, for each 5 milligrams of oxaliplatin administered to a patient,
outpatient hospitals should have billed Medicare for one service unit during our audit period.

Effective January 1, 2006, CMS instructed hospitals to bill Medicare for oxaliplatin using
HCPCS code J9263. The service unit for that code is 0.5 milligrams.

INCORRECT BILLING

For the five oxaliplatin outpatient claims that we reviewed, UCSD Medical Center billed
Medicare for (1) an incorrect number of service units for three claims, (2) services not provided
for one claim, and (3) an incorrect HCPCS code for one claim.

For the three claims with an incorrect number of service units:

   It	   One claim listed 400 service units for 190 milligrams of oxaliplatin administered instead
         of the appropriate 38 service units.

   It	   Another claim listed 306 service units for 153 milligrams of oxaliplatin administered
         instead of the appropriate 31 service units.

   It	   The remaining claim listed 400 service units for 100 milligrams of oxaliplatin

         administered instead of the appropriate 20 service units.


Medicare required billing one service unit for each 5 milligrams of oxaliplatin administered. For
these three claims, UCSD Medical Center received overpayments totaling $84,742.

For the one claim in which services were not provided, UCSD Medical Center billed Medicare
for 400 service units of oxaliplatin that were not administered to the beneficiary. For this claim,
UCSD Medical Center received an overpayment of$32,130.

For the one claim with an incorrect HCPCS code, UCSD Medical Center provided the drug
methotrexate to the beneficiary and should have billed HCPCS code Jn50 instead of cn05.
For this claim, UCSD Medical Center received an overpayment of $32,936.

In total, for these five claims, UCSD Medical Center received overpayments totaling $149,808.
UCSD Medical Center stated that the overpayments occurred because the hospital did not
have controls in place to ensure the proper billing of oxaliplatin.




                                                 3
RECOMMENDATIONS


We recommend that UCSD Medical Center:


   ..	 refund to the Medicare administrative contractor $149,808 in identified overpayments
       and

   ..	 ensure that the drugs billed correspond to the drugs administered.

UNIVERSITY OF CALIFORNIA SAN DIEGO MEDICAL CENTER COMMENTS

In its comments on our draft report, UCSD Medical Center accepted our recommendations and
described actions it had taken to implement them. UCSD Medical Center's comments are
included in their entirety as the Appendix.




                                                4

APPENDIX

                                                                                             APPENDIX




             UNIVERSITY
             ..• _      __oj CALIFORNIA,    SAN DIEGO
                                 _--_ _--------.. _._ _ .

             MEDICAL CENTER



June 25, 2009

Lori A. Ahlstrand
Regional Inspector General for Audit Services
Region IX
Office of Audit Services
90 - i h Street, Suite 3 -650
San Francisco, CA 94103

Subj:   Draft Report: A-09-09-00057 (Oxaliplatin)

Dear Ms. Ahlstrand:

Thank you for the opportunity to respond to your Draft Report.

The reconunendations have been reviewed and accepted. After verifying the dosage of
oxaliplatin given to the patients, corrected claims were sent to Palmetto-GBA reflecting
the correction of units based on the administered drugs' description. Palmetto-GBA has
acknowledged the correction with a take-back of the original payment and issue of a
corrected payment based on the medication and units. The overpayments occurred
because of a billing error related to the two oxaliplatin HCPCS codes (C9205 and J9263)
which had different service unit sizes. UC San Diego Medical Center has implemented
corrective procedures to ensure that the drugs billed correspond to the drugs administered
to prevent this type of error in the future.

If you have any questions or concerns, please contact me at 619-471-9028.


Sincerely,



II!::!!!!:tW
Chief Compliance Officer
University of California San Diego Health Sciences
